HHS/OIG-Audit--"Privatization of Florida's Overpayment Recovery Function, (A-04-96-00096)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Privatization of Florida's Overpayment Recovery Function," (A-04-96-00096)
May 28, 1996
Complete
Text of Report is available in PDF format (1.01 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report contains the results of our review of a Request for Proposal (RFP) initially released on December 1,
1995 by the Florida Department of Health and Rehabilitative Services (DHRS) concerning contracting out the State's welfare
benefit overpayment recovery function.
The initial objective of our review as to follow-up and determine what actions DHRS had taken on our recommendations in
the March 1992 Office of Inspector General report on overpayment recovery (A-04-91-00015).
During the planning phase of our review, we learned that the Administration for Children and Families (ACF) had completed
a similar overpayment recovery review in September 1994. We also learned that Florida was in the process of privatizing
its overpayment recovery function. In light of these events, a member of your staff requested that we postpone our planned
follow-up and instead, review certain aspects of the DHRS' privatization efforts.
Our review of DHRS' privatization efforts encompassed the terms and provisions of the RFP, DHRS policies and procedures,
and prior reports of the Office of Inspector General and ACF.
We concluded that privatization of the overpayment recovery function would only partially address problems cited by the
ACF in its prior report. Most of the problems will likely remain until addressed by the DHRS. We found no significant operational
problems with the language or clarity of the RFP itself.
We are recommending that ACF:
require DHRS to prepare and implement a corrective action plan based on the deficiencies noted in ACF's September 1994
report and
follow closely DHRS' implementation of any privatization effort and other correction actions. After a reasonable trial
period of privatization, the ACF should reevaluate the entire Overpayment and Recovery process of DHRS to determine the
effectiveness of DHRS' actions.
The ACF generally agreed with our findings and recommendations. By letter dated May 21, 1996, the ACF requested the State
to develop and submit to ACF a corrective action plan.